               OFFICE OF
        THE INSPECTOR GENERAL

   SOCIAL SECURITY ADMINISTRATION


 BENEFIT PAYMENTS MANAGED BY REPRESENTATIVE
     PAYEES OF CHILDREN IN FOSTER CARE IN
     THE SOCIAL SECURITY ADMINISTRATION’S
                CHICAGO REGION

           June 2012   A-13-11-21105




EVALUATION REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY

MEMORANDUM

Date:   June 18, 2012                                                                             Refer To:

To:     Nancy A. Berryhill
        Regional Commissioner
         Chicago

From:   Inspector General

Subject: Benefit Payments Managed by Representative Payees of Children in Foster Care in the
        Social Security Administration’s Chicago Region (A-13-11-21105)

        OBJECTIVE
        Our objective was to determine whether children in foster care programs in the Social
        Security Administration’s (SSA) Chicago Region had appropriate representative payees.
        Specifically, we reviewed payees of children in the State of Michigan Department of
        Human Services (MDHS) and the State of Indiana Department of Child Services’ (IDCS)
        foster care programs.

        BACKGROUND

        Some individuals are not able to manage or direct the management of their finances
        because of their youth or a mental and/or physical impairment. For such beneficiaries,
        Congress provided that payment could be made through a representative payee who
        receives and manages the payments on the beneficiary’s behalf. 1 A representative
        payee may be an individual or an organization. SSA selects representative payees for
        Old-Age, Survivors and Disability Insurance (OASDI) 2 and Supplemental Security
        Income (SSI) 3 beneficiaries 4 when representative payments would serve the individual’s
        interests.

        1
            The Social Security Act §§ 205(j) and 1631(a)(2)(A)(ii); 42 U.S.C. §§ 405(j) and 1383(a)(2)(A)(ii).
        2
         The OASDI program provides benefits to qualified retirement eligible and disabled workers and their
        dependents as well as to survivors of insured workers (Social Security Act § 201 et seq., 42 U.S.C. §
        401 et seq.).
        3
         The SSI program provides payments to individuals who have limited income and resources; and who
        are age 65 or older, blind, or disabled (Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.).
        4
          We use the term “beneficiaries” generically in this report to refer to both OASDI beneficiaries and SSI
        recipients.
Page 2 – Nancy A. Berryhill


According to SSA, cases involving foster care are among its most sensitive. It is
essential that SSA protect the rights of children who may not be able to rely on their
parents to do so. Therefore, it is important that SSA follow its policy, including a
complete investigation of the individual or organization applying to be a representative
payee and using the payee preference list appropriately to ensure children in foster care
have the appropriate representative payee. 5

SSA policy states, “Foster care agencies have traditionally been among SSA’s most
dependable payees; however, their appointment as rep [representative] payee is not
automatic . . .When a child is removed from parental custody and the court places the
child in custody of a foster care agency, the agency has legal custody of the child . . . .” 6
Sometimes, the foster care agency is also the child’s legal guardian. To choose the
best payee, SSA policy 7 identifies payee selection preferences. 8

The State foster care agency may not always know whether the child is receiving SSA
benefits. State agencies can use SSA’s State Verification Exchange System (SVES) to
determine whether the child is receiving benefits. 9 If the child is receiving benefits, the
State foster care agency can apply to SSA to become the child’s representative payee.
However, SSA determines who is best suited to be the child’s representative payee. An
MDHS official reported, and SSA staff confirmed, the Michigan foster care program did
not have an SVES agreement. SSA staff reported the State of Indiana signed an
agreement for data exchange with SSA in October 2009. We confirmed this with IDCS;
however, an IDCS official stated it did not use SVES.

We selected Michigan and Indiana for our review because each State had a large foster
care population, and they were willing to share their foster care data with us. MDHS
administers the State of Michigan’s foster care program and partners with private, non-
profit, and licensed child-placing agencies to provide care services. Child-placing
agencies place children in private homes for foster care or adoption. IDCS administers
the State of Indiana’s foster care program. In January 2005, Governor Mitch Daniels
issued Executive Order 05-15 establishing the IDCS. An IDCS official stated, in late
2008, IDCS centralized many of the foster care services previously performed at the
county level.

In May and June 2011, we conducted a computerized comparison of MDHS and IDCS
foster care data with SSA’s beneficiary records. We identified 697 children—192 in

5
    SSA, POMS, GN 00502.159 A. (effective June 25, 2007).
6
    SSA, POMS, GN 00502.159 A and B.2 (effective June 25, 2007).
7
    SSA, POMS, GN 00502.105 (effective July 14, 2008 – updated August 02, 2011 – no material changes).
8
    See Appendix E.
9
 SSA's SVES provides authorized State government agencies with a standardized method of verifying
Social Security numbers and OASDI and SSI benefit information.
Page 3 – Nancy A. Berryhill


Michigan and 505 in Indiana—who were being served by representative payees that
were not the foster care agency or the foster care parents. We believed these
children’s benefits were at a higher risk of misuse because they may not have had a
suitable payee since these payees may not have had contact with the children. The
payees included the children’s mothers, fathers, and relatives or others who received
and managed about $3.6 million in benefits payments, annually.

We randomly selected 100 children—50 in Michigan’s foster care program and 50 in
Indiana’s foster care program—to determine whether they were being served by
suitable representative payees. For these 100 children, we requested SSA perform
suitability assessments to determine whether the children had the appropriate
representative payees. Since these children had payees who were not the foster care
agency or the foster care parent, we were concerned they may not have had suitable
payees to manage their benefit payments. Therefore, we requested SSA review the
representative payees we identified. See Appendix B for our scope and methodology.
See Appendices C and D for our sampling methodology and results for Michigan and
Indiana, respectively.

RESULTS OF REVIEW
SSA reported 17 (34 percent) of the 50 children in Michigan’s foster care program had
suitable representative payees. For the remaining 33 children, SSA determined
(a) 31 had unsuitable payees—19 of whom misused children’s benefits, 7 did not have
misuse determinations completed, and 5 did not misuse benefits, and (b) 2 had suitable
payees, but SSA changed the payees in accordance with Agency policy.

The Agency reported 24 (48 percent) of the 50 children in Indiana’s foster care program
had suitable representative payees. For the remaining 26, the Agency determined
(a) 24 children were being served by unsuitable payees—16 of whom misused the
children’s benefits, and (b) 2 children had suitable payees, but SSA changed the
payees in accordance with Agency policy.

Based on the results of SSA’s assessments, we estimate unsuitable payees served
119 10 and 242 11 children in the Michigan and Indiana state foster care programs,




10
  For the unsuitable payees serving in Michigan, we are 90-percent confident the number of unsuitable
payees ranged from 98 to 138. (See Appendix C for more information.)
11
  For the unsuitable payees serving in Indiana, we are 90-percent confident the number of unsuitable
payees ranged from 184 to 302. (See Appendix D for more information.)
Page 4 – Nancy A. Berryhill


respectively. Of these, 73 children in Michigan had an estimated $265,037 12 in benefits
misused, and 162 children in Indiana had an estimated $688,699 13 in benefits misused.

Unsuitable Payees and Selection of Payees in Accordance with Agency Policy

Of the 100 children in our samples, SSA reported that payees serving 59 children were
either unsuitable; payees’ assessments of misuse were pending; or payees were
suitable payees, but SSA selected payees better suited according to Agency policy.

                                 SSA’s assessments of representative payees for 33 children
            Michigan             in Michigan’s foster care system determined:

•     31 had unsuitable payees (19 misused about $69,000 in the children’s benefits
      payments, 7 did not have misuse determinations completed, and 5 did not misuse
      benefits), and
•     2 had suitable payees, but SSA changed payees per Agency policy. 14

Of the 31 children who had unsuitable payees, SSA determined 19 had payees who
misused about $69,000 in benefits belonging to the children they served. Of these 19
children, SSA changed payees for 13, suspended benefits for 4, terminated benefits for
1, and put 1 in non-pay status. For example, in January 2009, MDHS removed a child
from the care of his mother, who was also his payee. In August 2011, the mother
completed the Form SSA – L732, Request for Information, for the period January
through December 2010, stating that the child lived with her during the entire period.
She did not have any conserved money for the child. SSA determined the mother made
a false statement regarding the child’s living arrangement and misused $7,470 of the
child’s benefits. SSA selected MDHS as the child’s new representative payee.

See Table 1 for more details about the 19 payees SSA determined misused Social
Security benefits of children in Michigan.




12
  For the 73 children with misuse, we are 90-percent confident the number of children with benefit
misuse ranged from 54 to 94 and the amount of misuse ranged from $158,413 to $371,661. (See
Appendix C for more information.)
13
   For the 162 children, we are 90-percent confident the number of children with benefit misuse ranged
from 110 to 221 and the amount of misuse ranged from $369,578 to $1,007,820. (See Appendix D for
more information.)
14
     See Appendix E for more information.
Page 5 – Nancy A. Berryhill


           Table 1: Representative Payee Benefit Misused – Michigan
Child Beneficiary   Benefit Misuse Period                         Misuse Amount
        1           June 2010 - September 2011                                 $1,207
        2           June 2010 - September 2011                                 $1,207
        3           March 2011 - September 2011                                $3,145
        4           February 2009 - September 2011                             $7,470
        5           June 2011 - July 2011                                        $256
        6           August 2009 - August 2011                                 $10,478
        7           February 2011 - May 2011                                   $2,696
        8           July 2010 - August 2011                                    $9,436
        9           November 2010 - July 2011                                  $5,998
       10           October 2009 - August 2011                                   $851
       11           March 2011 - August 2011                                     $574
       12           March 2010 - May 2011                                      $1,965
       13           September 2009 - September 2011                            $2,355
       14           January 2011 - October 2011                                $6,220
       15           September 2002 - August 2011                               $2,026
       16           December 2010 – June 2011                                    $364
       17           February 2010 – March 2011                                 $9,436
       18           July 2010 – July 2011                                      $1,668
       19           July 2010 – July 2011                                      $1,668
                           Total                                              $69,020

SSA determined the payees for seven children were unsuitable; however, it did not
make formal misuse determinations. SSA reported it unsuccessfully attempted to
contact the payees serving four children. SSA suspended benefits for the four children.
SSA’s policy states, if the Agency cannot locate the payee but believes misuse has
occurred, the case should be referred to the Office of the Inspector General. The
Agency had limited contact with another child’s payee; however, the payee did not
provide SSA the information it requested. SSA changed the child’s payee to the foster
care agency. Policy states a payee’s refusal to provide requested information can be
considered as evidence that misuse may have occurred. For the two remaining
children, SSA contacted the foster care agency to determine the appropriate payee but
did not contact the payee in question to determine what happened to these children’s
benefits. SSA changed the payee for one child and suspended the benefits of the
other.

SSA determined payees serving the remaining five children were unsuitable; however, it
found no misuse occurred. For one child, the mother (payee) stated she continued
participating with the child even after MDHS removed the child and used the benefits to
maintain the house as required for home reunification. The foster care workers stated
she expected the child to return in a few months. SSA contacted MDHS, determined
MDHS would be the suitable payee, and notified MDHS that they should apply to be the
payee. However, as of January 2012, the mother remained the payee.

For the remaining four children, MDHS removed the children from the mother’s (payee)
home and placed the children in the care of their grandparents or another relative. For
Page 6 – Nancy A. Berryhill


two children, the payees stated they provided for the child, and SSA determined misuse
had not occurred. SSA made MDHS the payee for one child and the grandparent
payee for the other. MDHS placed another child with his aunt while his mother was
incarcerated. SSA determined misuse had not occurred and appointed the aunt as his
new payee. For the remaining child, SSA determined based on the evidence obtained,
the payee had not committed misuse. SSA suspended the child’s benefits until it could
locate a suitable payee.

Finally, SSA concluded two children did have suitable payees, but per SSA policy, it
replaced the payees with others SSA decided were better suited to be the children’s
payees. 15 SSA selected MDHS as the new payee for one child and appointed the foster
care parent as the new payee for the other.

We estimate unsuitable payees served 119 children in Michigan’s foster care program.
Of these, 73 children had an estimated $265,037 in benefits misused. If SSA does not
identify and replace the payees who misused Social Security payments, we estimate an
additional $308,031 16 may be misused during the next 12 months.

                                 SSA’s assessments of representative payees for 26 children
            Indiana              in Indiana’s foster care system determined:

•      24 were served by unsuitable payees (16 of those payees misused about $68,000 in
       the children’s benefits payments), and
•      2 had suitable payees, but SSA changed payees per Agency policy.

SSA determined 24 children had unsuitable payees. Of the 24 children, SSA
determined 16 had payees who misused about $68,000 in benefits that belonged to the
children they served. For example, IDCS removed a child from her mother’s (payee)
home in November 2009. The mother did not report the change of custody to SSA.
SSA contacted IDCS to determine whether the mother was helping the State with the
child’s care. SSA determined the mother did not use any of the child’s benefits for the
child while she was out of her custody. Therefore, SSA determined the mother misused
$13,692 of the child’s benefits received from December 2009 to August 2011. In
August 2011, IDCF became child’s new payee.

See Table 2 for more details about the 16 payees SSA determined misused Social
Security benefits of children in Indiana’s foster care system.




15
     Id.
16
   For children with future misuse in the State of Michigan, we are 90-percent confident the amount of
future misuse ranges from $187,431 to $428,751. (See Appendix C for more information.)
Page 7 – Nancy A. Berryhill


                Table 2: Representative Payee Benefit Misused – Indiana
 Child Beneficiary                Benefit Misuse Period                          Misuse Amount
         1               June 2010 - August 2011                                              $4,956
         2               February 2011 - August 2011                                          $4,718
         3               December 2009 - August 2011                                         $13,692
         4               October 2010 - August 2011                                           $7,414
         5               February 2011 - July 2011                                            $1,164
         6               October 2010 - June 2011                                             $3,843
         7               October 2009 - August 2011                                           $6,286
         8               December 2010 - August 2011                                            $640
         9               November 2010 - August 2011                                          $7,312
        10               April 2010 - July 2011                                               $2,568
        11               July 2010 - September 2011                                             $156
        12               February 2011 - June 2011                                            $3,370
        13               April 2010 - July 2010                                               $1,116
        14               April 2011 - June 2011                                                 $207
        15               April 2011 - September 2011                                          $4,044
        16               December 2010 - August 2011                                          $6,702
                                Total                                                        $68,188

For the remaining eight children with unsuitable payees, SSA found no misuse.
However, SSA changed payees for the eight children. For three children, SSA
confirmed with the foster care parent that the payee had provided for the child’s care.
SSA determined no misuse had occurred. SSA appointed the foster care parent as the
new payee for two children and appointed IDCS as payee for the remaining child.
Payees for three other children saved the benefit payments on behalf of the children
and returned the funds to SSA. SSA appointed the foster care parent as payee for one
child and selected IDCS as the payee for the other two children. Lastly, for the two
remaining children, SSA determined there was no evidence of misuse. SSA selected
IDCF to be the children’s new payee.

SSA determined suitable payees served two beneficiaries, but the Agency replaced the
payees with others SSA determined best suited to serve as payees for these children. 17
For these two children, SSA selected IDCS as the new payee. For example, IDCS
removed a child from his grandmother’s (payee) household. However, the child was
able to return to his grandmother on the weekend. SSA determined the payee spent
the money on the child. However, SSA determined even though the payee was
suitable, she was not the proper payee at that time. SSA changed the payee to IDCS.

We estimate unsuitable payees served 242 children in Indiana’s foster care program.
Of these, 162 children had an estimated $688,699 in benefits misused. If SSA does not
identify and replace the payees who misused these Social Security payments, we
estimate an additional $764,893 18 may be misused during the next 12 months.

17
     Id.
18
   For children with future misuse in the State of Indiana, we are 90-percent confident the amount of
future misuse ranges from $437,439 to $1,092,347. (See Appendix D for more information.)
Page 8 – Nancy A. Berryhill


Suitable Representative Payees

SSA determined 41 of the 100 children in our samples—17 in MDHS’ foster care
program and 24 in IDCS’ foster care program—had suitable payees. We reviewed
documentation SSA provided to support its assessment of the payees. For payees
serving 12 children, SSA provided various documents to support its assessment, such
as Forms SSA-5002, Reports of Contact; SSA-795, Statement of Claimant or Other
Person, and SSA-553; Special Determination. In addition, we reviewed information
recorded in the Electronic Representative Payee System and Representative Payee
System. We found this information sufficient and reliable, and it adequately supported
SSA’s suitability assessments. SSA policy 19 directs staff to use Form SSA-5002 to
document assessment of the payee’s suitability. However, for the remaining
29 children, SSA did not provide such documentation. For these children, the Agency
provided, and we relied on, detailed explanations of the assessments.

During SSA’s review of the children selected from Michigan’s foster care program, it
determined 17 children had suitable payees managing their benefit payments. SSA
determined the payees either had custody or guardianship of the child or maintained a
close relationship with the children while they were not in their care. Therefore, SSA
determined the payees were suitable. For example, SSA reported DHS removed a
child from her mother’s home and placed her with her grandmother. The mother was
also the child’s payee. The child returned home after a few months. While the child
was away from her mother’s home, the mother provided for the child’s needs. SSA
confirmed this with the child. Since the child had returned to her care and she provided
for the child accordingly when the child was out of her care, SSA determined the mother
to be a suitable payee.

Of the children selected from Indiana’s foster care program, SSA determined 24 had
suitable payees managing their benefits payments. SSA determined the representative
payees to be suitable because the payee had guardianship or custody of the child and
maintained a relationship and showed concern for the children. For example, IDCS
removed a child from their home and placed the child in the care of a relative. The
relative managed the child’s Social Security benefits. During SSA’s assessment of the
relative (payee), the child was still residing with her and she plans to adopt the child.
IDCS closely monitors the relative as well. SSA determined the payee is suitable.

CONCLUSION AND RECOMMENDATIONS
Our comparison of data from MDHS and IDCS with SSA’s records identified
697 children served by representative payees who were not the foster care agency or
the foster care parent. We found MDHS did not have an SVES agreement, and IDCS
did not use SVES, although it had an agreement. As a result, we believe MDHS and
IDCS may not have always been aware when children in their foster care programs
received Social Security benefits. SSA’s SVES allows States to determine whether a


19
     SSA, POMS, SI 02305.123 C (effective January 22, 2003)
Page 9 – Nancy A. Berryhill


child is receiving benefits. With this information, the foster care agencies can determine
whether they should apply to be a child’s representative payee.

Of the children we identified, SSA conducted suitability assessments for payees serving
50 children in Michigan’s foster care program and 50 children in Indiana’s foster care
program. The Agency determined 31 children in Michigan’s foster care program had
unsuitable payees, 19 of whom misused about $69,000. For Indiana, SSA
determined,24 children in foster care had unsuitable payees, and 16 payees misused
about $68,000 in benefits payments.

We estimate unsuitable payees served 119 and 242 children in the Michigan and
Indiana state foster care programs, respectively. Of these, 73 and 162 children,
respectively, had an estimated $265,037 and $688,699 in benefits misused by their
payees. If SSA does not identify and replace the payees who misused Social Security
payments, we estimate an additional $308,031 and $764,893 may be misused during
the next 12 months in Michigan and Indiana, respectively.

We recommend SSA:

1. Partner with the State of Michigan to increase opportunities to share information,
   such as establishing an agreement to use SVES, and discuss with the State of
   Indiana the existing SVES agreement to maximize the potential to identify unsuitable
   representative payees and decrease instances of benefit payment misuse.

2. Conduct suitability assessments for the representative payees associated with the
   remaining 67 children in Michigan and 253 children in Indiana in pay status as of
   February 2012 with payees who were not the foster care agency or the foster care
   parents.

3. Consider (a) referring to the Office of the Inspector General for further review the
   four payees it could not locate; (b) making a formal misuse determination for the one
   payee who did not provide SSA with the requested information; and (c) contacting
   the two payees who SSA had not contacted to determine how benefits were used for
   the children while they were in foster care.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix F for the Agency’s comments.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology - Michigan

APPENDIX D – Sampling Methodology - Indiana

APPENDIX E – Payee Selection Preferences

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
IDCS     Indiana Department of Child Services
MDHS     Michigan Department of Human Services
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Programs Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
SVES     State Verification Exchange System
U.S.C.   United States Code
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

     Reviewed applicable Federal laws and sections of the Social Security
      Administration’s (SSA) regulations, policies, and procedures.

     Identified and reviewed prior relevant audits.

     Interviewed SSA officials and officials from Michigan’s Department of Human
      Services (MDHS) and Indiana’s Department of Child Services (IDCS).

     Obtained from MDHS and IDCS electronic data extracts of children in their foster
      care systems as of February 11, 2011 for MDHS and April 1, 2011 for IDCS.

     Used SSA’s Enumeration Verification System to validate the Social Security
      numbers for MDHS’ February 11, 2011 and IDCS’ April 1, 2011 foster care data.

     Performed computerized comparisons of foster care data provided by MDHS and
      IDCS with SSA’s Master Beneficiary and Supplemental Security Records.

         o   Based on this comparison of SSA and MDHS data, we identified
             1,113 children in Michigan’s foster care program receiving Old-Age, Survivors
             and Disability Insurance (OASDI) 1 and/or Supplemental Security Income
             (SSI) 2 payments from SSA managed by representative payees. See Table B-
             1 for details.

       Table B-1: Representative Payees for Children in Michigan’s Foster Care
                                     Program
                                     Receiving     Receiving        Receiving
         Representative               OASDI          SSI          OASDI and SSI             Total
             Payee                   Payments      Payments         Payments               Children
    MDHS                                   227           221                  20                      468
    Foster Care Parents                    293           146                  14                      453
    Not MDHS or Foster Care                152            36                   4                      192
    Parents
    Total                                   672            403                   38               1,113


1
 The OASDI program provides benefits to qualified retirement eligible and disabled workers and their
dependents as well as to survivors of insured workers (Social Security Act § 201 et seq., 42 U.S.C. §
401 et seq.).
2
 The SSI program provides payments to individuals who have limited income and resources; and who
are age 65 or older, blind, or disabled (Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.).

                                                   B-1
    o   Based on this comparison of SSA and IDCS data, we identified 1,561 children in
        Indiana’s foster care program receiving OASDI and SSI payments from managed
        by representative payees. See Table B-2 for details.

             Table B-2: Representative Payees for Children in Indiana’s
                               Foster Care Program
                               Receiving   Receiving      Receiving
        Representative          OASDI        SSI        OASDI and SSI         Total
            Payee              Payments    Payments       Payments           Children
 IDCS                                362         332                41                  735
 Foster Care Parents                 209         107                 5                  321
 Not IDCS or Foster Care             311         174                20                  505
 Parents
 Total                               882          613                66            1,561

   Identified 697 children—192 in Michigan and 505 in Indiana—where the
    representative payee was someone other than the foster care agency or the child’s
    foster care parent.

   Selected 50 children each from MDHS and IDCS’ foster care programs and
    requested SSA determine whether the children had the appropriate representative
    payees. See Appendices C and D for our sampling methodologies and estimates for
    Michigan and Indiana, respectively.

   Requested information from SSA regarding the suitability assessments it completed
    and the basis for those determinations.

   Reviewed such documents as Forms SSA-5002, Report of Contact; SSA-795,
    Statement of Claimant or Other Person; SSA-553, Special Determination; Electronic
    Representative Payee System notes; and Representative Payee System notes that
    supported the Agency’s decision on the suitability assessments of the representative
    payees. In addition, we considered the Agency’s detailed explanations about its
    payee assessments.

We performed our review at SSA’s Headquarters in Baltimore, Maryland, from
May 2011 to March 2012. We tested the data obtained for our review and determined
them to be sufficiently reliable to meet our objective. The entities reviewed were field
offices in SSA’s Chicago Region. We conducted our review in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspection and Evaluation.




                                           B-2
                                                                       Appendix C

Sampling Methodology – Michigan
We obtained from the Michigan Department of Human Services (MDHS) a list of
children under its care as of February 11, 2011. In May 2011, we conducted a
computerized comparison of MDHS foster care data with SSA’s Master Beneficiary and
Supplemental Security Records. Based on this comparison, we identified
1,113 children with representative payees in MDHS’ foster care program who were
receiving SSA payments. Of these, we determined 192 had representative payees who
were not the foster care agency or the foster care parent. We randomly selected
50 children for the Agency to assess the suitability of their payees.

Of the 50 children in our sample, SSA determined the payees for 31 to be unsuitable.
The following tables provide details of our sample results, statistical projections, and
estimates.

              Table C-1: Number of Children with Unsuitable Payees
     Number of Children with Unsuitable Payees                                    31
     Point Estimate                                                              119
     Projection Lower Limit                                                       98
     Projection Upper Limit                                                      138
    Note: All projections are at the 90-percent confidence level.

Of the 31 unsuitable payees, SSA confirmed 19 misused benefits totaling $69,020.
Projecting these results to our population of 192 children, we estimate 73 children had
$265,037 in benefits misused by their payees.

                Table C-2: Number of Children with Benefit Misuse
     Number of Cases with Benefit Misuse                                          19
     Point Estimate                                                               73
     Projection Lower Limit                                                       54
     Projection Upper Limit                                                       94
    Note: All projections are at the 90-percent confidence level.

                       Table C-3: Amount of Benefit Misuse
     Amount of Benefit Misuse                                               $69,020
     Point Estimate                                                        $265,037
     Projection Lower Limit                                                $158,413
     Projection Upper Limit                                                $371,661
    Note: All projections are at the 90-percent confidence level.




                                                  C-1
SSA confirmed 19 representative payees misused benefit payments. If the Agency
does not identify and replace these unsuitable payees, additional Social Security
payments may be misused. Projecting these results to our population of 192 children,
we estimate these payees may misuse an additional $308,091 of benefits for the next
12 months.

       Table C-4: Additional Benefits Misused (for a 12-Month Period) if SSA
                 Did Not Take Action to Correct Beneficiaries with Misuse
      Amount of Future Benefit Misuse (12-month period)               $80,232 1
      Point Estimate                                                  $308,091
      Projection Lower Limit                                          $187,431
      Projection Upper Limit                                          $428,751
    Note: All projections are at the 90-percent confidence level.




1
 To calculate the amount of potential future benefits misuse for a 12-month period, we multiplied the last
monthly benefit payment by 12 months for the 16 beneficiaries whose benefits were misused.

                                                   C-2
                                                                      Appendix D

Sampling Methodology – Indiana
We obtained from the Indiana Department of Child Services (IDCS) a list of children
under its care as of April 1, 2011. In June 2011, we conducted a computerized
comparison of IDCS foster care data with SSA’s Master Beneficiary and Supplemental
Security Records. Based on this comparison, we identified 1,561 children with
representative payees in IDCS’ foster care programs who were receiving SSA
payments. Of these, we determined 505 had representative payees who were not the
foster care agency or the foster care parent. We randomly selected 50 children for the
Agency to assess the suitability of their payees.

Of the 50 children in our sample, SSA determined 24 payees to be unsuitable. The
following tables provide details of our sample results, statistical projections, and
estimates.

              Table D-1: Number of Children with Unsuitable Payees
     Number of Children with Unsuitable Payees                                  24
     Point Estimate                                                            242
     Projection Lower Limit                                                    184
     Projection Upper Limit                                                    302
    Note: All projections are at the 90-percent confidence level.

Of the 24 unsuitable payees, SSA confirmed 16 misused benefits totaling $68,382.
Projecting these results to our population of 505 children, we estimate162 children had
$688,699 in benefits misused by their payees.

                Table D-2: Number of Children with Benefit Misuse
     Number of Cases with Benefit Misuse                                        16
     Point Estimate                                                            162
     Projection Lower Limit                                                    110
     Projection Upper Limit                                                    221
    Note: All projections are at the 90-percent confidence level.

                       Table D-3: Amount of Benefit Misuse
     Amount of Benefit Misuse                                             $68,188
     Point Estimate                                                      $688,699
     Projection Lower Limit                                              $369,578
     Projection Upper Limit                                            $1,007,820
    Note: All projections are at the 90-percent confidence level.




                                                  D-1
SSA confirmed 16 representative payees misused benefit payments. If the Agency
does not identify and replace these unsuitable payees, additional Social Security
payments may be misused. Projecting these results to our population of 505 children,
we estimate these payees may misuse an additional $764,893 of benefits for the next
12 months.

       Table D-4: Additional Benefits Misused (for a 12-Month Period) if SSA Did
                     Not Take Action to Correct Beneficiaries with Misuse
      Amount of Future Benefit Misuse (12-month period)                   $75,732 1
      Point Estimate                                                     $764,893
      Projection Lower Limit                                             $437,439
      Projection Upper Limit                                           $1,092,347
     Note: All projections are at the 90-percent confidence level.




1
 To calculate the amount of potential future benefits misused for a 12-month period, we multiplied the last
monthly benefit payment by 12 months for the 16 beneficiaries whose benefits were misused.

                                                   D-2
                                                                             Appendix E

Payee Selection Preferences
The Social Security Administration’s (SSA) policy directs its staff to choose the applicant
best suited to serve as representative payee. 1 In determining the best payee choice,
SSA staff is instructed to “. . . consider all factors, including the applicant’s relationship
to the beneficiary, the applicant’s interest in the beneficiary’s well being and whether or
not the applicant has custody of the beneficiary.” In addition, policy indicates
representative payee preference lists are provided as guides to help in the selection of a
payee. As stated in policy, the lists below are generally shown in the preferred order of
selection for minor children and adults.

Payee Preference Lists for Minor Children

Agency policy states “When the beneficiary is a minor child, select the best payee
available from this list of preferred applicants:

    1. A natural or adoptive parent with custody;
    2. A legal guardian;
    3. A natural or adoptive parent without custody, but who shows strong concern;
    4. A relative or stepparent with custody;
    5. A close friend with custody and provides for the child’s needs;
    6. A relative or close friend without custody, but who shows strong concern;
    7. An authorized social agency or custodial institution; or
    8. Anyone not listed above who shows strong concern for the child, is qualified, and
       able to act as payee, and who is willing to do so.”

Payee Preference List for Adults

SSA policy states “When you determine that the beneficiary needs a representative
payee, select the best payee available from this list of preferred applicants:

    1. A spouse, parent or other relative with custody or who shows strong concern;
    2. A legal guardian/conservator with custody or who shows strong concern;
    3. A friend with custody;
    4. A public or nonprofit agency or institution;


1
 SSA, POMS, GN 00502.105 (effective July 14, 2008 – August 2, 2011; updated August 2, 2011 – no
material changes).

                                               E-1
5. A Federal or State institution;
6. A statutory guardian;
7. A voluntary conservator;
8. A private, for-profit institution with custody and is licensed under State law;
9. A friend without custody, but who shows strong concern for the beneficiary’s well-
   being, including persons with power of attorney;
10. Anyone not listed above who is qualified and able to act as payee, and who is
    willing to do so;
11. An organization that charges a fee for its service.”




                                         E-2
                                                                     Appendix F

Agency Comments

May 23, 2012

REPLY: Signed Draft Report (A-13-11-21105)


Thank you for the opportunity to review the recommendations proposed by the Office of
the Inspector General regarding this audit. We agree with each of the three
recommendations, and have begun taking steps to implement them.

If you or your staff have any questions, please contact Grant Vreuls, Program Expert of
the Center for RSI/SSI Policy via email or by calling 312-575-4232.

                                          /s/

                                   Nancy A. Berryhill
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Upeksha van der Merwe, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-13-11-21105.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
